         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report

The Department's Management
of Non-Nuclear High Explosives




DOE/IG-0730                            June 2006
REPORT ON THE DEPARTMENT'S MANAGEMENT OF NON-NUCLEAR
HIGH EXPLOSIVES


TABLE OF
CONTENTS


           Management of High Explosives


           Details of Finding ........................................................................................1

           Recommendations and Comments ..............................................................9


           Appendices


           1. Objective, Scope, and Methodology....................................................12

           2. Prior Reports ........................................................................................14

           3. Management Comments ......................................................................16
MANAGEMENT OF HIGH EXPLOSIVES

Life-Cycle Asset      Two defense laboratories did not maintain adequate
Management of High    control, accountability, and safety over their high explosive
Explosives            inventories. At Sandia National Laboratories (Sandia),
                      contractor officials did not always track the acquisition and
                      use of explosives and could not account for significant
                      quantities of explosive material and devices. In addition,
                      both Sandia and the Los Alamos National Laboratory (Los
                      Alamos) maintained large quantities of high explosives that
                      were unlikely to be needed for current or future missions.
                      Finally, both organizations were not regularly evaluating
                      the stability and safety of the high explosive materials as
                      required. In contrast, we found the high explosives
                      management process at the Lawrence Livermore National
                      Laboratory (Livermore) to be effective.

                                        Materials Accountability

                      Sandia did not adequately track the acquisition, use, or
                      disposal of its explosive material at off-site locations.
                      Comparison of the inventories maintained by off-site
                      locations to Sandia's records revealed significant disparities
                      and resulted in the identification of items that could not be
                      accounted for or whose disposition path was less than
                      certain. Specifically, Sandia could not account for at least
                      410 items, including detonators, rocket motors, shaped
                      explosives, and bulk explosive powders that had been
                      consigned to private sector organizations. Sandia's
                      Explosive Inventory and Information System (EIS) also
                      could not be reconciled with inventories maintained by a
                      number of Federal facilities at which Sandia explosives
                      were located, resulting in about 43 unreconciled items.

                      In addition, we found that, in certain instances, quantities
                      held by off-site locations either exceeded those recorded in
                      the EIS or were not recorded at all. At five locations, we
                      observed that 255 explosive items similar to those types
                      described above and 500 rounds of ammunition were not
                      reflected in the EIS. As an example, we identified a large
                      quantity of Sandia-owned materials - almost 190,000
                      pounds of explosive propellant contained in 39 rocket
                      motors – that were stored at a Federal facility; however,
                      they were not listed in EIS.




________________________________________________________________
Page 1                                            Details of Finding
                                   Based on discussions with responsible Sandia officials and
                                   personnel at the off-site locations, as well as a review of
                                   records provided by both, we determined that:

                                       •    Quantities of on-hand explosives at 15 of the 201
                                            off-site locations tested were not consistent with the
                                            information contained in the EIS;

                                       •    Reconciliation was not possible for 4 of the 20
                                            because officials from the off-site locations were
                                            unable to provide sufficient data to permit us to
                                            make a determination of inventory levels; and,

                                       •    The inventory at only 1 of the 20 locations could be
                                            reconciled to the EIS without exception.

                                   Officials from both Sandia and off-site locations told us
                                   that they could not fully explain how the differences
                                   occurred. In a number of instances, responsible individuals
                                   stated that they provided the explosives to organizations to
                                   be used in tests or experiments and simply assumed that
                                   differences in what was recorded in Sandia's EIS and site-
                                   level inventories were as a result of the material being
                                   expended. In most of the situations where items held at the
                                   off-site locations exceeded quantities recorded in EIS,
                                   Sandia officials told us that the materials were never
                                   entered into their system as required.

                                                              Mission Need

                                   Sandia also retained explosive materials that significantly
                                   exceeded mission need. At the time of our site review,
                                   Sandia maintained about 2,300 High Velocity Aircraft
                                   Rocket (HVARs) motors. These rocket motors were
                                   obtained as surplus military ordnance to provide cost-free
                                   propulsion for sled track tests. Information provided by
                                   contractor officials revealed that in the last five years, 82 of
                                   the HVARs had been used for various tests and an
                                   additional 242 had been destroyed. At this rate of
                                   consumption, Sandia had enough HVARs for
                                   approximately 36 years of similar activities. In 2002,
                                   Sandia designed a plan to draw down this inventory by 200
                                   rocket motors per year, either through experimental testing,

1
  These 20 locations included Department of Defense (DOD) controlled sites, private sector organizations –
including universities – and other Department facilities that stored and utilized explosive materials in
National Laboratory sponsored experiments or tests.

________________________________________________________________
Page 2                                            Details of Finding
                      use or disposal. They did so because of the age of the
                      rocket motors (manufactured in 1952), and the potentially
                      low stabilizer levels that could affect the ability to safely
                      store and use the materials and ultimately require the
                      Laboratory to engage in a costly disposal campaign.
                      However, it was not until May 2004 that Sandia had begun
                      to make progress on the inventory draw down plan.

                      Los Alamos also accumulated significant amounts of high
                      explosive materials that were unlikely to be used for
                      current or future missions. For example, we identified 63
                      anti-personnel rockets that were acquired by the laboratory
                      in 1986. While these devices no longer included warheads,
                      each rocket still contained enough propellant to burn for a
                      maximum range of 6,500 yards. Even though some of
                      these items were considered for disposal in an on-going
                      inventory reduction effort, the Los Alamos official
                      designated as the "owner" of this material stated that he
                      requested that the items be kept in inventory because they
                      were "almost like gold." The owner decided to retain the
                      items in spite of the fact that the last test that Los Alamos
                      conducted with these rockets was at least 10 years ago and
                      that there was no projected use for them. In another
                      example, Los Alamos obtained 141 gun rounds and
                      cartridges during the late 1980's that had no defined need.
                      Los Alamos officials could not provide a date when these
                      items had last been used nor did they believe that there was
                      a foreseeable programmatic use for the gun rounds and
                      cartridges. However, a Los Alamos official stated that he
                      wanted to keep these items because they were difficult to
                      obtain.

                                          Stability and Safety

                      Although required by the DOE Explosives Safety Manual
                      (Explosives Safety Manual), neither Sandia nor Los
                      Alamos routinely examined the stability and safety
                      characteristics of their high explosives. Under normal
                      circumstances, site officials are required to conduct
                      periodic reviews to examine the packaging, static
                      sensitivity, and physical state of their high explosive
                      materials. Testing revealed, however, that these required
                      examinations were not being performed. For example, Los
                      Alamos’ inventory reduction effort found about 32,000
                      pounds of bulk powders and propellants and 359 munitions
                      units such as rocket motors, warheads, and missiles – some

________________________________________________________________
Page 3                                            Details of Finding
                      of which had been stored at the site for over 40 years – had
                      not been examined to determine whether they remained
                      stable and safe for use and/or continued storage.

                      Problems with stability and safety reviews of explosives
                      also existed at Sandia. For example, as noted previously,
                      Sandia maintained high explosives at a number of off-site
                      facilities. An official at one off-site Federal facility told us
                      that he was concerned with the age and hazard
                      classification of rocket motors being stored by Sandia at his
                      location. These materials had been stored at the site since
                      1966, but to the Federal official's knowledge, no one was
                      performing storage reviews to determine whether the
                      motors remained stable. According to Sandia
                      requirements, these rocket motors should have been
                      reviewed every ten years at a minimum, and as frequently
                      as every year depending on their condition and type as
                      determined at the time of acquisition.

Explosives            Despite Departmental requirements to effectively manage
Management Strategy   property from acquisition to disposition, neither Sandia nor
                      Los Alamos fully embraced inventory control and
                      accountability over explosives materials. Further, while the
                      Department of Energy (Department) had established high
                      explosives safety management guidelines, neither site was
                      ensuring that the quantity of explosive materials was kept
                      to the minimum required for programmatic need or that
                      safety review requirements were implemented. Finally,
                      Federal officials were not implementing effective explosive
                      management programs.

                                       Implementation of Control
                                     and Accountability Procedures

                      Although local procedures had been developed to control
                      high explosives, their implementation was inadequate at
                      both Sandia and Los Alamos. In particular, even though
                      Department regulations required contractors to track
                      explosives from acquisition to disposition, several
                      individuals at these laboratories were unaware that they had
                      been assigned responsibility to manage and control specific
                      quantities of explosives. For example, ownership of 520
                      artillery shells brought to Sandia in 1992 was transferred to
                      a new owner in 2004. The new owner told us, however,
                      that he had not been made aware of the transfer, had no use
                      for these materials, and did not want them. In addition,
                      numerous explosive items had no individual owners
________________________________________________________________
Page 4                                            Details of Finding
                      identified in the Los Alamos inventory system despite a
                      site-level requirement. For example, we found that no
                      owner had been assigned responsibility for managing 288
                      warheads and 96 rocket motors. A Los Alamos official
                      acknowledged the problem with ownership assignments
                      and stated that they were working towards identifying
                      owners for all explosive materials to improve
                      accountability.

                      While Sandia required cradle-to-grave management of
                      explosive materials, materials' owners were not specifically
                      required to perform needed accountability and verification
                      procedures. In particular, owners were not required to
                      conduct periodic inventory verification and/or validation
                      tests necessary to properly maintain EIS information.
                      Further, with respect to Sandia's materials stored at off-site
                      locations, officials had not established an effective process
                      to confirm how much material was being used during
                      experiments or to periodically validate the off-site
                      inventory amounts in the EIS.

                                          Programmatic Need

                      Large quantities of aging high explosives had been
                      obtained and were being stored because the National
                      Nuclear Security Administration (NNSA) site management
                      at Sandia and Los Alamos was not ensuring that the
                      quantity of explosives at a laboratory was limited to the
                      amount required for operations as prescribed by the
                      Department's property management regulations. The
                      owners of the high explosives stored at two of the three
                      sites we visited were not required to justify the continued
                      storage of materials based on programmatic need, even
                      though these materials had not been used for many years.
                      Sandia officials indicated that owners were reluctant to
                      identify explosives as no longer needed, because the
                      owner's program would have to cover the cost of disposing
                      of the material. On the other hand, while the material is
                      being stored at Sandia, the cost of maintenance and storage
                      is charged to overhead and the burden is borne by all
                      activities at the site. Los Alamos also had significant
                      inventories of high explosives that were not being reviewed
                      for programmatic need because either existing requirements
                      were not being implemented or owners were not assigned
                      for existing explosive materials. Los Alamos recently
                      initiated a project to reduce the amount of high explosives

________________________________________________________________
Page 5                                            Details of Finding
                      being stored. While this was a positive step, it was a one-
                      time effort that was not designed to be a part of an on-going
                      high explosive inventory management program.

                      Conversely, at the third site, Livermore, owners actively
                      managed the explosive materials inventory. Specifically,
                      officials had initiated a procedure to ensure that owners
                      annually reviewed their inventories of high explosive
                      materials and identified whether they were mission
                      essential or excess. If declared excess, Livermore initiated
                      its disposition process. In addition, the site developed and
                      implemented a procedure to test explosive materials for
                      stability and safety. Livermore's overall approach to
                      managing high explosive materials could be used as an
                      example for other locations.

                                          Safety and Stability

                      Storage review programs to determine the safety and
                      stability of explosive materials at Sandia and Los Alamos
                      were not current or active. The Department's Explosives
                      Safety Manual requires each site to designate or establish
                      storage review committees which, in turn, design storage
                      review programs for each explosive material. Effective
                      storage review programs address issues related to the
                      stability, safety and handling of the materials stored and
                      used at the sites including, on a case-by-case basis, a
                      determination of the required frequency of storage review
                      when explosive items are initially acquired.

                      At Sandia, the last storage review initiative was performed
                      in 2002 and did not include off-site locations. This effort
                      resulted in the disposal of over 30,000 pounds of aging
                      explosive powders and propellants. Sandia officials
                      indicated that they did not have the resources or site
                      support for other storage review program activities.
                      Additionally, materials stored at off-site locations were not
                      being reviewed for stability and safety. Sandia confirmed
                      that they did not have requirements, policies, or procedures
                      for managing explosives at off-site locations.

                      Similarly, Los Alamos has not had a site-wide explosive
                      storage review program since 1998. Although Los Alamos
                      officials reestablished a storage review program in July
                      2005, concurrent with our review, this program will not be
                      effective without the participation of owners or complete

________________________________________________________________
Page 6                                            Details of Finding
                      historical data for explosives. For example, local policy for
                      one division required that designated owners determine, at
                      the time of scheduled inventory, whether explosives should
                      be reviewed for stability and safety or should be scheduled
                      for disposal. However, in many cases in this division,
                      explosives ownership was lost when personnel retired or
                      programs were discontinued causing "orphaned" explosives
                      to lose a critical control necessary for stability and safety
                      reviews. We also learned that historical data prior to 1999
                      was not available for another division, a factor that
                      prevented management and the audit team from
                      determining whether needed reviews had been performed.
                      Officials told us that Los Alamos had recently assigned a
                      full-time person to implement a new inventory reduction
                      program as well as manage and track one division's
                      inventory of high explosives. Although a positive step, this
                      effort will only cover one of the several Los Alamos
                      divisions that use high explosives.

                                          Federal Management

                      Contractor explosives programs were not effective at
                      Sandia and Los Alamos because Federal management of
                      these activities was limited to reviews of workplace hazards
                      and administrative controls. Based on discussions with
                      Federal officials, we determined that the Site Offices were
                      not always aware of explosives that had been acquired or
                      were maintained by the laboratories. For example, no
                      Federal official was aware that Sandia's EIS did not
                      reconcile with high explosive inventories at off-site
                      locations. Also, while contractors had made sporadic
                      evaluations to draw down their high explosive inventories
                      to be more consistent with mission needs and storage
                      capabilities, we could not identify a specific Federal
                      official or organization that was verifying that those
                      activities were performed.

                      To his credit, a Federal official had notified the Los
                      Alamos Site Office at least five times during 2004 and
                      2005 that Los Alamos needed to reinstate an Explosives
                      Storage Review Committee to ensure that explosives were
                      still in a safe condition for continued storage. This finding
                      was closed for Los Alamos in August of 2005 when an
                      Explosives Storage Review Committee was established.
                      However, we did not find that Federal officials expressed
                      similar concerns at Sandia, despite the fact that the last

________________________________________________________________
Page 7                                            Details of Finding
                      storage reviews were conducted in 2002. Sandia had not
                      re-established a storage review program by the end of our
                      review.

                      We also noted that the environment, safety and health
                      (ES&H) reviews by the Office of Independent Oversight
                      had not recently examined the specific element of
                      explosives materials storage and had not identified the
                      specific issues detailed in this report. Officials from
                      Independent Oversight told us that their inspections include
                      a review of site implementation of the core functions of
                      integrated safety management and whether those processes
                      are working as intended at the user level. The inspections
                      are based on a sample of facilities and work activities that
                      is selected based on site-specific factors such as risks,
                      hazards, management initiatives, and past ES&H
                      performance. Independent Oversight personnel had not
                      selected explosives practices as a specific area of review on
                      recent inspections of Los Alamos and Sandia.

Departmental Risk     Without improvements in the control and accountability
                      for the management of high explosives, the Department
                      faces an increased risk of theft, diversion, or unauthorized
                      use of this material. The recent theft of a large quantity of
                      privately-owned explosives from a non-Departmental
                      storage depot in Bernalillo County, New Mexico, illustrates
                      the need for improvements in the Department's controls.
                      The storage depot site reportedly was inspected weekly,
                      allowing the quantity and type of materials stolen from the
                      depot to be readily identified. Had a theft occurred at one
                      of the non-federal, off-site locations included in our review,
                      it would have been extremely difficult, if not impossible, to
                      accurately identify the type and extent of stolen
                      Departmental materials.

                      Because of the inherent risks associated with high
                      explosives management, it is incumbent on the Department
                      to ensure that explosive safety is given high priority. While
                      no explosives-related fatalities have occurred since the
                      conception of the Department's Explosives Safety Manual
                      in 1978, it was the death of three workers at the Pantex
                      Plant in 1977 that brought about the development of the
                      Explosives Safety Manual. During the course of the audit,
                      we learned of several incidents and accidents at other
                      facilities that occurred during the handling of explosives.
                      For example, in 1999, two Department of Defense
                      contractor employees were seriously injured when

________________________________________________________________
Page 8                                            Details of Finding
                     a 105 millimeter howitzer shell exploded during
                     disassembly. Another incident involved a worker who was
                     killed while removing a motor that contained ferrocene – a
                     constituent in propellant that is extremely impact and
                     motion sensitive – from its packaging. Both 105 millimeter
                     shells and ferrocene are present at Sandia.

                     The Department can mitigate the risks associated with
                     explosives handling and processing by establishing a
                     verifiable inventory management system and by
                     maintaining a consistent and comprehensive effort to
                     identify the characteristics of high explosives stored at its
                     sites and addressing those that are unsafe or excess to their
                     needs. Without an effective explosives management
                     program, the Department increases the risk to worker
                     health and safety and creates the potential for adverse
                     impacts to the environment. Further, timely disposal of
                     these excess materials provides the opportunity for savings
                     of storage and disposal costs.


RECOMMENDATIONS      We recommend that the Administrator, National Nuclear
                     Security Administration:

                        1. Develop and implement life-cycle asset and
                           property management policies and procedures that,
                           at a minimum, require contractors to periodically
                           verify inventory amounts, ownership, and location –
                           including off-site locations – of high explosives
                           under their cognizance;

                        2. Ensure that contractors conduct periodic reviews of
                           existing explosives inventories to establish
                           programmatic need;

                        3. Ensure that contractors implement the provisions of
                           the DOE Explosives Safety Manual by establishing
                           storage review programs and committees to
                           evaluate the stability and safety of all explosives
                           under their cognizance; and,

                        4. Establish a Federal oversight mechanism, in
                           coordination with the Office of Independent
                           Oversight, for the management of high explosives
                           that includes examining the accuracy and



________________________________________________________________
Page 9                              Recommendations and Comments
                            programmatic need of reported explosives
                            inventories, and the existence and effectiveness of
                            site storage review programs.


MANAGEMENT           NNSA agreed with our report and indicated that it had
REACTION             implemented some immediate actions related to inventory
                     controls, storage and safety. NNSA also stated that at no
                     time was there a risk of diversion of explosive material.

                     The Office of Security and Safety Performance Assurance,
                     the NNSA Sandia Site Office, and its site contractor,
                     Sandia National Laboratories also provided technical
                     comments and suggestions regarding our draft report.
                     Management comments are summarized below. NNSA
                     comments are included in their entirety as Appendix 3.

                     The Office of Security and Safety Performance Assurance
                     agreed that the report identified significant deficiencies
                     with explosives safety that need to be addressed and
                     indicated that corrective actions for these deficiencies will
                     help reduce the risk from explosive storage activities at Los
                     Alamos and at Sandia.

                     The NNSA’s Sandia Site Office agreed that the report
                     raised issues that warranted immediate attention. It
                     indicated that actions had been taken or were initiated to
                     improve safety and accountability of high explosive
                     materials. We were informed that, after we issued our draft
                     report, the laboratory had, for the most part, completed a
                     reconciliation of the explosive inventory problems we
                     identified.


AUDITOR              NNSA's comments recognize that improvements are
COMMENTS             needed in the management of high explosives and are,
                     therefore, considered responsive to the recommendations.
                     However, we do not agree with management's assertion
                     that there was no risk of diversion of explosive material.
                     During the audit, Sandia indicated that it did not have
                     policies and procedures to ensure accountability of off-site
                     locations that received or stored explosive materials.
                     Without a means of ensuring positive control, and in light
                     of the significant inventory differences we identified, a
                     theft or diversion of material could have occurred and not
                     have been discovered.

________________________________________________________________
Page 10                             Recommendations and Comments
                     With regard to Sandia's reported reconciliation efforts, we
                     are concerned that they were limited and may not be
                     accurate. For example, Sandia limited its reconciliation to
                     items specifically identified at the 15 off–site locations
                     where we found inconsistencies and has yet to complete
                     similar procedures for inventories at all of its 134 off-site
                     storage locations. In addition, an examination of evidence
                     supporting the recent reconciliation revealed that, in many
                     instances, it was based solely on testimonial evidence and
                     contained accounting and quantity errors.

                     As a result of the various comments provided, we made
                     modifications to the final report, where appropriate.




________________________________________________________________
Page 11                             Recommendations and Comments
Appendix 1

OBJECTIVE             The objective of our audit was to determine whether the
                      Department of Energy (Department) was adequately
                      managing its high explosive (non-nuclear) materials.


SCOPE                 The audit was performed between April 2005 and March
                      2006. We conducted work at Headquarters, Washington,
                      D.C.; Sandia National Laboratories (Sandia), Albuquerque,
                      NM; Los Alamos National Laboratory (Los Alamos), Los
                      Alamos, NM; and Lawrence Livermore National
                      Laboratory, in Livermore, CA.


METHODOLOGY           To accomplish the audit objective, we:

                         •   Reviewed laws, regulations, contractual
                             requirements, and policies and procedures relevant
                             to the Department's use and storage of high
                             explosive materials;

                         •   Reviewed site specific guidance, manuals, and
                             policies and procedures where available;

                         •   Held discussions with Headquarters program
                             officials and reviewed relevant documentation
                             regarding high explosives at the National Nuclear
                             Security Administration (NNSA) sites;

                         •   Held discussions with officials from the NNSA
                             Service Center and the Sandia and Livermore Site
                             Offices and reviewed relevant documentation
                             regarding the use and management of high
                             explosives at the sites;

                         •   Held discussions with officials from the Sandia, Los
                             Alamos, and Lawrence Livermore National
                             Laboratories and reviewed relevant documentation
                             regarding their use and management of high
                             explosives;

                         •   Selected judgmental samples of explosive materials,
                             located these materials at the sites, and held
                             discussions with site officials to determine whether
                             there was a current or likely future programmatic
                             use for the materials listed in their name;


________________________________________________________________
Page 12                            Objective, Scope, and Methodology
Appendix 1 (Continued)

                         •   Selected a judgmental sample of 20 off-site
                             locations which reportedly maintained Sandia-
                             owned explosive materials and determined whether
                             the high explosives listed in the Explosive
                             Inventory and Information System were equal to the
                             amount in existence at the off-site location; and,

                         •   Obtained and reviewed documentation relevant to
                             accidents and theft of high explosives.

                      The audit was performed in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy the audit objective. Accordingly, we
                      assessed the significant internal controls and performance
                      measures established under the Government Performance
                      and Results Act of 1993. While specific performance
                      measures concerning the management of high explosives
                      did not exist, performance in this regard was measured as
                      an element under each Laboratory's environment, safety,
                      and health performance. Because our review was limited,
                      it would not necessarily disclose all internal control
                      deficiencies that may have existed at the time of our audit.
                      We only used computer processed data to select sample
                      items and off-site storage location information; therefore,
                      we did not test for data reliability.

                      We held an exit conference with management on June 20,
                      2006.




________________________________________________________________
Page 13                            Objective, Scope, and Methodology
Appendix 2

                                    PRIOR REPORTS


•   The Department's Pollution Prevention Program (DOE/IG-0680, March 2005). The
    audit found that the Department of Energy (DOE) did not have in place a
    comprehensive, consistent, complex-wide program to identify, evaluate, and
    implement cost-effective proposals to minimize the generation of waste. For
    example, sites did not systematically research new opportunities to prevent and
    recycle waste; and sites did not always implement pollution prevention strategies that
    they had already concluded were feasible and cost effective. In addition, we found
    that the DOE did not always support and fund pollution prevention programs, nor did
    it establish performance measures to monitor waste reduction activities. Based on our
    review of only four sites, we identified a total of $5.5 million of potential cost savings
    opportunities that DOE had not realized. In addition, at one site, annual average cost
    savings from pollution prevention activities since Fiscal Year 2002 actually decreased
    nearly $40 million. We noted that additional senior management focus is needed if
    DOE is to maximize opportunities to reduce costs and minimize waste generation
    across the complex.

•   Inspection of Oversight of Shock Sensitive Chemicals at the Department's Ames
    Laboratory (DOE/IG-0615, August 2003). The inspectors concluded that, although
    Ames has documented requirements in place for controlling shock sensitive
    chemicals, implementation shortcomings resulted in shock sensitive chemicals not
    being properly controlled, raising concerns with respect to personnel safety and the
    protection of the DOE assets. Specifically, the inspection found that: 1) Ames had
    not implemented a life-cycle management system to ensure the proper identification,
    labeling, tracking, storage, handling, and disposition of shock sensitive chemicals;
    and 2) although Ames has a safety performance measure broad enough to encompass
    management controls over shock sensitive chemicals, associated assessment
    procedures for the performance measure do not specifically address shock sensitive
    chemicals. The inspection also found that DOE does not have a standard definition or
    listing of shock sensitive chemicals. Consequently, there is inconsistent handling
    among DOE sites of chemicals that may be shock sensitive.

•   Inspection of Explosives Safety at Selected Department of Energy Sites (DOE/IG-
    0578, December 2002). The inspectors concluded improvements could be made in
    the areas of explosives safety, fire safety, and lightning safety. Specifically,
    degradation review programs regarding explosives shelf-life were not fully
    implemented at the Nevada Operations Office (NVO) and the Oak Ridge Operations
    Office; DOE had not incorporated the DOE Explosives Safety Manual into all
    applicable contracts; combustible material was inappropriately stored near explosives
    at NVO; and tests of lightning protection on NVO explosive storage magazines were
    not completed consistently.




________________________________________________________________
Page 14                                              Prior Reports
Appendix 2 (continued)

•   Stocked Inventory at the Savannah River Site (DOE/IG-0508, June 2001). The report
    disclosed that Westinghouse Savannah River Company was not adequately managing
    its stocked inventory. The contractor had not identified and disposed of items that: 1)
    exceeded maximum storage levels, and 2) had no usage during the past 10 years. The
    audit disclosed that Westinghouse did not have procedures in place to calculate the
    amount of stocked inventory necessary for the site's mission. Further complicating
    the situation, Westinghouse accounting procedures penalized users for identifying and
    disposing of excess stocked inventory. Specifically, when items were declared
    excess, removed from inventory, and disposed of, they had to be charged against a
    specific user's budget account. Thus, the user's had little or no incentive to ensure
    that excess inventories were properly addressed. The Inspector General found similar
    inventory situations at several Departmental facilities. In fact, the issue of property
    and inventory controls was identified as one of the top 10 management challenges
    facing DOE. The Office of Inspector General believed that a high-level Department-
    wide effort was warranted to identify and dispose of excess assets, reduce related
    storage and maintenance costs, and develop a system that maximizes operational
    efficiency by maintaining inventories at appropriate levels.

•   Utilization of the Big Explosives Experimental Facility (WR-B-01-03, March 2001).
    The Big Explosives Experimental Facility (BEEF), under the direction of the Nevada
    Operations Office, was designed and operated to perform large-load, high-explosive
    experiments that could not be done at other DOE firing ranges. The audit found that
    since it opened in 1997, the BEEF was used to perform only a limited number of
    detonations (shots). In fact, most of the shots performed at the BEEF could have
    been conducted at other DOE firing facilities. The audit also determined that in the
    future, facility utilization might decline even further because potential users of the
    facility were moving away from the larger shots for which the BEEF was designed.
    If the BEEF was used on an as-needed basis, $500,000 could be better used annually,
    and the laboratory personnel could avoid unnecessary travel costs to the NTS.

•   Management of Unneeded Materials and Chemicals (CR-B-99-02, September 1999).
    A mission change resulting from the end of the Cold War called into question the
    need for contractors at the DOE's large production facilities and laboratories to
    acquire, directly produce, and/or store enormous amounts of non-nuclear materials
    such a sodium, lead, chemicals, and scrap metal. The audit found that DOE needed to
    strengthen its management of unneeded materials and chemicals. Large quantities of
    unneeded materials existed at many contractor sites, and Departmental actions to sell
    or reuse these items have been fragmented. This situation existed because DOE has
    not assigned organizational responsibility and instituted an overall program to sell,
    reuse, or characterize as waste its unneeded inventory. As a result, DOE may be
    missing disposition opportunities that could result in savings or reduced costs.




________________________________________________________________
Page 15                                              Prior Reports
Appendix 3




________________________________________________________________
Page 16                                     Management Comments
                                                             IG Report No. DOE/IG-0730

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
